The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                         OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, DC 20436




January 25, 2012                                                           OIG-KK-002


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report Evaluation of
Employee Out-Processing Program, OIG-ER-12-07. When finalizing the report, we
considered management’s comments on our draft report and have included those
comments in their entirety in Appendix A.

This evaluation contains 11 recommendations for corrective action. In the next 30 days,
please provide me with your management decisions describing the specific actions that
you will take to implement each recommendation.

Thank you for the courtesies extended to the evaluators during this evaluation.




Philip M. Heneghan
Inspector General
                               U.S. International Trade Commission
                                                  Evaluation Report


                                               Table of Contents
Results of Evaluation .................................................................................... 1

Problem Areas............................................................................................... 2
   Problem Area 1: There was not a Commission directive describing the out-
   processing process. ......................................................................................................... 2

   Problem Area 2: Secondary liaisons have not been identified..................................... 3

   Problem Area 3: The Office of Finance did not have a procedure for collecting
   purchase cards. ................................................................................................................ 4

   Problem Area 4: The Law Library did not have an effective process for collecting
   Commission resources. ................................................................................................... 5

   Problem Area 5: Office of Security and Support Services did not have an effective
   procedure to account for Metro Smartcards. .................................................................. 5

   Problem Area 6: Out-processing offices did not always maintain documentation. ..... 6

   Problem Area 7: The Commission did not have a process for litigation holds. .......... 7

Management Comments and Our Analysis ............................................... 8

Objective, Scope, and Methodology ............................................................ 8

Appendix A: Management Comments on Draft Report......................... A




                                                                 i
                      U.S. International Trade Commission
                                Evaluation Report


                              Results of Evaluation
The objective of this evaluation was to answer the following question:

       Is the USITC’s out-processing program effective and efficient?

No. The USITC’s out-processing program did not provide an effective or efficient system
to monitor and account for Commission resources.

For the purposes of this evaluation, “effective” is defined as one that ensures property is
returned, work documents are transferred, access is disabled, reconciliation completed,
and briefings are conducted. “Efficient” is defined as achieving outcomes with minimal
waste.

The Office of Personnel Management (OPM) established the Business Reference Model
(BRM) which describes processes that efficiently and effectively assist employees when
transitioning to non-federal employment; terminating employees due to unproductivity;
and/or assisting employees with their transition to retirement. Each agency is responsible
for the development and implementation of a formal process, tailoring it to meet their
individual needs.

The Office of Human Resources (HR) provides a checklist for all permanent and
nonpermanent employees to complete upon exiting the Commission. There is not a
directive describing how the checklist is to be used. As a result, aspects of the out-
processing of employees were disorganized and, inconsistent. .

The evaluation identified seven problem areas: (1) there was not a Commission directive
describing the out-processing process; (2) secondary liaisons have not been identified; (3)
the Office of Finance did not have a procedure for collecting purchase cards; (4) the Law
Library did not have an effective process for collecting Commission resources; (5) Office
of Security and Support Services did not have an effective procedure to account for
Metro SmartCards; (6) out-processing offices did not always maintain documentation;
and (7) the Commission did not have a process for litigation holds.




OIG-ER-12-07                                -1-
                     U.S. International Trade Commission
                               Evaluation Report


                                  Problem Areas

                                      Problem Area 1:
       There was not a Commission directive describing the out-processing process.



In accordance with the Office of Personnel Management’s recommendations on out-
processing, an effective and efficient employee exiting program should consist of a
continuous flow of communication between all parties involved. A fully developed
procedure should be reviewed, analyzed, and kept up-to-date to reflect the goals and
objectives of the Commission.

There were several inconsistencies in the checklist and its supporting communications
used by HR to account for Commission resources:

   x   The Clearance Notice Listserv is used as a communication tool to alert out-
       processing office liaisons of expected employee departures. Emails on the
       Clearance Notice Listserv are not being received and/or sent consistently.
   x   Overall communication is inconsistent between HR and the office liaisons with
       responsibility for out-processing.
   x   Out-processing forms are not updated and contain irrelevant and outdated
       information.
   x   The Office of Finance’s out-processing liaisons are signing off on items for which
       they have no knowledge.
   x   Liaisons have little to no training in out-processing procedures.

The following was stated in regards to communication and documentation when an
employee is departing the Commission:

   x   “The agency is small so I typically hear when someone is leaving the agency.”
   x   “The agency is so small that I pretty much know who has an open account.”

The office out-processing liaisons relied heavily on the Clearance Notice Listserv, which
is used to notify liaisons of expected employee departures. Certain liaisons on this list
stated that emails were received regarding departing employees, while other liaisons
indicate that the emails were never received. Currently, there are twenty-eight employees
on the email listserve. Ten out of twenty-eight employees on the list have no relationship
to the out-processing program. Additionally, the list is missing six liaisons from various
offices. The fact that the Listserv was used for a more narrowly defined objective helps
explain this.



OIG-ER-12-07                               -2-
                     U.S. International Trade Commission
                               Evaluation Report

A thorough plan must be implemented in order to provide a continuous flow of
communication between HR and the designated offices. This plan needs to clearly
identify the order and importance of communication and recognize key procedures that
HR and all office liaisons must follow. If this plan is not executed, resources will be
uncounted for or employees will continue to receive benefits for which they are no longer
eligible.

Recommendation 1:

   Develop an out-processing procedure that ensures communication between all
   responsible parties.

Recommendation 2:

   Establish a process to notify all liaisons about every expected employee departure.



                                   Problem Area 2:
                      Secondary liaisons have not been identified.


One aspect of an effective out-processing program is separation support, which consists
of assisting the employee to the separated status. According to the OPM, this process
should begin when a manager identifies an employee for separation and ends when the
necessary paperwork has been completed and filed with the designated party. In
compliance with these standards, the Commission designated a liaison to provide
endorsements (signatures) to demonstrate that the employee has met the out-processing
obligations for that office.

In our interviews, it was noted that the following offices/programs do not have secondary
liaisons in place:

   x   Office of Security and Support Services
   x   FedTraveler
   x   Security



During our interviews, the following was stated in regards to a secondary liaison:

   x   “No one is available when I am not here to facilitate the out-processing. When I
       am not here, Human Resources will hold on to the badge until I return to work.”


OIG-ER-12-07                               -3-
                     U.S. International Trade Commission
                               Evaluation Report

   x   “No, it’s just me.”
   x   “When I am not here, no one else is trained on FedTraveler. Most employees
       complete the FedTraveler portion of their checklist early.”

Although some offices had designated a secondary liaison to fulfill out-processing duties
in the absence of the primary liaison, the Commission had not made the use of a
secondary liaison a requirement in the out-processing of an employee. As a result, staff
that facilitated in the absence of the primary liaison lacked the knowledge, resources, and
training to properly out-process an employee.

Recommendation 3:

   All office liaisons that have a responsibility for the out-processing of an employee
   need to be trained annually or as out-processing requirements change.

Recommendation 4:

   A second person to facilitate out-processing in the absence of the primary liaison
   should be assigned.




                                  Problem Area 3:
       The Office of Finance did not have a procedure for collecting purchase
                                       cards.


The government purchase card is a billed account used for official business. Only
permanent federal employees are given a purchase card and their approving supervisor or
an official reviews the statements to ensure charges are Commission related.

The Commission and the Office of Finance must develop and implement an internal
process that is vigilant in the retrieval of purchase cards from departing employees. The
Commission had not developed a notification system to ensure that the Office of Finance
was aware of departing cardholders. When asked about the potential use of the card by
employees, the following was stated: “Well, the travel card is in the employees name so
even if they were to purchase non agency related things on the card, they will have to
repay the funds. The P-Card the agency pays for anyway.” As a result, departing or
former employees could purchase non-work related items on their Commission issued
purchase cards.




OIG-ER-12-07                               -4-
                     U.S. International Trade Commission
                               Evaluation Report

Recommendation 5:

   Develop a process to retrieve purchase cards prior to an employee’s departure.


                                Problem Area 4:
   The Law Library did not have an effective process for collecting Commission
                                   resources.


The Law Library serves as a resource for agency employees fulfilling their daily
operational duties. There is a standard procedure for checking-out materials in the law
library; however, the self-checkout process currently in place does not ensure an
accounting of all materials for which the library is responsible. Employees complete the
form in the sleeve of the book and then place the form in a folder in the front of the
library. The library is open 24/7; therefore, it is the responsibility of the employee to
complete this form. If the form is not filled-out, the law library has no record that the
book is checked-out.

When asked about the deactivation of electronic resources, such as LexisNexis or
Westlaw, it was stated that the account would only be terminated if the employee
properly out-processes with the Law Library. If an employee does not properly out-
process with the library, LexisNexis or Westlaw could continue to be used for non-
Commission related purposes.

Thus, law librarian out-processing liaisons were not always aware when a current
employee had borrowed library materials or continued to have an active LexisNexis or
Westlaw account. As a result, books and e-materials for which the Law Library is
responsible could be misused.

Recommendation 6:

   Create an improved system of check-in and check-out procedures for the Law
   Library.




                                  Problem Area 5:
     Office of Security and Support Services did not have an effective procedure
                          to account for Metro Smartcards.




OIG-ER-12-07                               -5-
                     U.S. International Trade Commission
                               Evaluation Report

According to Title 5 U.S.C. Section 7905, commuting by means other than single-
occupancy transportation is strongly encouraged. Federal agencies have identified a
transportation fringe benefit program that offers qualified Federal employees the option
to use mass transportation or vanpools.

During our interview with the Office of Security and Support Services out-processing
liaison, it was stated that there is not a process for regularly verifying Metro Smartcard
assignment and usage. The Commission and Office of Security and Support Services had
not developed a thorough, well-documented process to aid in the monitoring of these
funds to ensure they are only being used by active employees.

To ensure effective operations, Office of Security and Support Services must be able to
develop a systematic method of monitoring the use of the Metro Smartcard. This
procedure must provide clear directions on the necessary steps to be taken to account for
all Smartcards and ensure use is only being provided to active employees. If a procedure
is not implemented, there is an increased risk of unauthorized Smartcard use.

Recommendation 7:

   Develop a process to regularly identify current employees using the SmartCard and
   remove unapproved users.




                                  Problem Area 6:
           Out-processing offices did not always maintain documentation.


In order to maintain adequate files and ensure good recordkeeping practices, Commission
staff should be active participants in monitoring and securing the Commission’s
resources. Office out-processing liaisons should be instructed on good recordkeeping
practices to allow for current evaluation and future assessment. Additionally, liaisons
ought to be instructed on the proper methods of retaining internal documents to ensure
that opportunities for the mismanagement of Commission resources and funds are
minimized to the extent possible.

In our interviews, the following were disclosed regarding documentation:

   x   “No, there isn’t an internal checklist that is used. There might be a report that
       could be run but I haven’t attempted to do this yet.”
   x   “No. A copy of the check-out form, once it’s been signed, is not made.”




OIG-ER-12-07                                -6-
                     U.S. International Trade Commission
                               Evaluation Report

Although some offices use an internal checklist to aid in out-processing employees, the
Commission has not required individual offices to develop their own internal checklist or
require supplemental documentation. During our interviews, it was discovered that Office
of Security and Support Services do not use an internal checklist or database to keep
track of out-processing records. It was noted by out-processing liaisons in both of these
offices that, due to the Commission being relatively small, there is no need to provide
such documentation. As a result, a confirmation that the out-process was completed
correctly is unavailable.

Recommendation 8:

   Record the completion of the out-processing checklist.

Recommendation 9:

   Each office must develop an internal out-processing procedure.

Recommendation 10:

   Office of Human Resources must implement a procedure to track and monitor the
   flow of activity through the out-processing stages.




                                Problem Area 7:
             The Commission did not have a process for litigation holds.


One aspect of an effective out-processing program is the preservation of official
Commission records and relevant internal documentary materials. Records include all
books, papers, maps, photographs, machine readable materials, or other documentary
materials, regardless of physical form or characteristics, made or received by an agency
of the United States Government under Federal law or in connection with the transaction
of public business and preserved or appropriate for preservation by that agency or its
legitimate successor as evidence of the organization, functions, policies, decisions,
procedures, operations, or other activities of the Government or because of the
informational value of them (44 U.S.C. Sec. 3301) . Documentary materials is a
collective term for records, non-record materials, and personal papers that refers to all
media containing recorded information, regardless of the nature of the media or the
method(s) or circumstance(s) of recording (36 C.F.R. 1222.12(b) (1) Defining Federal
records).


OIG-ER-12-07                               -7-
                       U.S. International Trade Commission
                                 Evaluation Report

The Commission currently does not have a procedure for maintaining records or
documents in the event that a litigation hold will need to take place. During our
interviews, it was stated that, in some cases, the Office of the General Counsel is only
aware when employees are involuntarily leaving the Commission. HR needs to work
closely with the Office of the General Counsel not only when an employee is
involuntarily leaving the agency, but also when an employee leaves voluntarily.

It was noted by employees interviewed in the Office of the General Counsel that the
reason for not having a thorough process is because litigation holds rarely occur at the
Commission; however, based on our interviews, the Office of the General Counsel should
be an active participant in the Commission’s effort to monitor records and documents. By
not having a plan developed or implemented, valuable resources and time will be lost in
the future.

Recommendation 11:

   A litigation hold process must be implemented by the Office of the General Counsel.




                Management Comments and Our Analysis
On January 17, 2012, Chairman Deanna Tanner Okun provided management comments
on the draft audit report. The Chairman agreed with our assessment that there are seven
problem areas related to the employee out-processing program and concurred with our
conclusions. The Chairman’s response is provided in its entirety as Appendix A.




                     Objective, Scope, and Methodology
Objective:

         Is the USITC’s out-processing program effective and efficient?

         For the purposes of this evaluation, “effective” is defined as one that ensures
         property is returned, work documents are transferred, access is disabled,
         reconciliation completed, and briefing is conducted. “Efficient” is defined as
         achieving outcomes with minimal waste.

Scope:

             The scope of this evaluation included the review of all statutes, regulations,
             policies, and procedures applicable to the USITC out-processing program,


OIG-ER-12-07                                 -8-
                     U.S. International Trade Commission
                               Evaluation Report

           interviews, and the review of internal files for completeness within the
           previous calendar year (October 4, 2010 – October 3, 2011).

Methodology:

       The methodology used during this inspection included in-person interviews and
       document review.

We obtained and reviewed a copy of the Employee/Contractor Clearance Procedure
checklist and interviewed liaisons in the following offices/programs:

   x   FedTraveler Global Administrator
   x   Dockets Division
   x   Office of the General Counsel
   x   Law Library
   x   Office of the Secretary
   x   Office of Finance
   x   Office of Operations
   x   Office of Facilities Management
   x   Help Desk
   x   Records Management
   x   NSI
   x   Human Resources
   x   Security

We reviewed the out-processing programs at the following Agencies:

   x   US Department of Treasury
   x   US Department of Interior
   x   US Small Business Administration
   x   US Government Accountability Office
   x   US Department of Health and Hospitals
   x   US Department of Transportation
   x   Federal Trade Commission (this review included an interview)

Reviewed and collected all relevant out-processing paperwork for each of the following
Commission resources and/or procedures:

   x   Property Returned
          o Blackberry/Phone
          o Kastle Key


OIG-ER-12-07                               -9-
                  U.S. International Trade Commission
                            Evaluation Report

          o Computer/Laptop
          o RSA Tokens
          o Parking Pass
          o Metro Card
          o Library Materials
          o Hard Door Keys
  x   Work Documents
          o Records management
          o Internal office documents
  x   Access/Log-in
          o Intranet and log-in codes
          o Building access
          o Lexis/Westlaw
          o Safe combinations changed
  x   Briefing
          o Ethics
          o Retirement
          o Security
  x   Reconciliation
          o Accounting/Owed debts collected
          o Travel
          o HR/Leave
          o Credit/Purchase Card
  x   General Counsel
          o Litigation hold “e-discovery”




OIG-ER-12-07                         - 10 -
               U.S. International Trade Commission
                           Appendix A


    Appendix A: Management Comments on Draft Report




                               A

OIG-ER-12-07
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
